September 28, 2007


MEMORANDUM FOR:             EMILY STOVER DeROCCO
                            Assistant Secretary for Employment
                             and Training




FROM:                       ELLIOT P. LEWIS
                            Assistant Inspector General
                             for Audit

SUBJECT:                    Mississippi’s Suspension of Controls Resulted
                            in the Payment of at Least $25 Million in Disaster
                            Unemployment Assistance to Claimants Whose
                            Eligibility was Unsubstantiated
                            Management Letter No. 06-07-004-03-315

INTRODUCTION

This Office of Inspector General (OIG) Management Letter is being issued as
part of OIG’s audit in response to the 2005 Gulf Coast hurricanes. The complete
results of the audit will be summarized in a roll-up report.

We are recommending ETA take corrective actions to ensure the Mississippi
Department of Employment Security (MDES) has adequate controls in place to
safeguard Disaster Unemployment Assistance (DUA) benefits paid to future
claimants, and to recover any federally funded benefits that have not been
substantiated.

BACKGROUND

On August 29, 2005, Hurricane Katrina hit the Louisiana, Mississippi, and
Alabama coasts, resulting in a national disaster. A national emergency was
declared, making DUA available to residents of the affected areas who lost their
jobs, or were unable to return to their jobs as a result of Hurricane Katrina, if they
did not qualify for State unemployment compensation (UC). Additionally, on
September 23, 2005, Hurricane Rita hit the Texas and Louisiana coasts,
resulting in another national emergency declaration on September 24, 2005.

MDES was inundated with DUA claims as a result of Hurricane Katrina. An
Office of Management and Budget Memorandum for the President’s
Management Council, dated October 13, 2005, provided guidance to Federal


                                          1
agencies on streamlining the delivery of benefits to victims of the Hurricanes.
While the memorandum provided that eligibility requirements be temporarily
waived, it also required implementation of post-payment controls to ensure
benefits went to only individuals who qualified for them. MDES, in accordance
with guidance from ETA, suspended basic eligibility review controls to expedite
handling the massive number of claims. In addition, the Governor of Mississippi
issued an Executive Order (EO 940) to pay all DUA claims at the $210 maximum
weekly benefit amount (WBA).

Among the various eligibility requirements, Federal regulations require DUA
claimants to provide proof of employment (POE) to substantiate that they were
employed or self-employed, or about to be employed or self-employed, at the
time of the disaster.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to determine the following:

   1. Was proof of employment adequate to support claimants’ entitlement to
      DUA?

   2. What was the monetary impact of paying DUA claimants the maximum
      weekly benefit amount instead of the amount they would have received
      under the State law?

The scope of our audit included $37,598,080 in DUA payments made to 10,532
Mississippi claimants for the weeks ending September 10, 2005, through June 3,
2006.

To obtain an understanding of the DUA program, we reviewed Code of Federal
Regulations Title 20, Section 625 (20 CFR 625), ETA Handbook Number 356,
and State EO 940; and interviewed ETA and State officials.

In January 2006, we obtained data files from MDES that included DUA payments
and employer-reported wages for the weeks ending September 3, 2005, through
December 11, 2005. We identified 10,755 claimants who were paid $21,366,859
in DUA and had no wages reported in the wage file. These claimants would be
required to provide POE since they had no employer-reported wages to
substantiate their employment.

We randomly sampled 63 of the claimants to determine if the claimants provided
adequate evidence of POE at the time of the Hurricane. We reviewed the
information claimants provided as POE and determined the majority of them
provided only 2004 tax documents or other documents that we considered to be
inadequate. Based on these results, we decided to perform an audit to determine
the magnitude of potential overpayments.



                                        2
Using the same data file, we selected a statistical sample of 371 claimants. We
performed a comprehensive review of the sampled claimants’ documents they
provided as POE, which we obtained from MDES, to determine if data
adequately supported POE for the claimants at the time of the disaster.

We also reviewed 2004 tax documents for the 159 claimants that submitted
them, and calculated what their WBA would have been based on this information.
We compared our results with the amounts MDES actually paid the claimants to
determine the impact of MDES paying the maximum WBA.

Our analysis initially covered DUA benefits paid for the week ending
September 10, 2005, through April 15, 2006. We completed this analysis and
conducted an exit conference with MDES on September 14, 2006, and issued a
statement of facts.

MDES responded to the statement of facts and, based on its response, we
determined five claimants had reported incorrect social security numbers (SSNs)
and were eligible for UC. We also determined that two claimants’ DUA claims
were cancelled and never reinstituted. We excluded these seven claimants from
our analysis, leaving 364 in our sample. MDES paid the remaining claimants
$1,255,830 in DUA.

Using a second data file provided by MDES in July 2006, we extended our
analysis through June 3, 2006, to include all 39 weeks of DUA payments. We
made adjustments to the universe to account for claimants that had been
included in the January 2006 data file but, for reasons such as incorrect SSNs
and MDES redetermining that claimants were eligible for UC, were not included
in the July 2006 data file. Our final universe, after these adjustments, was
10,532 claimants who had been paid $37,598,080 in DUA.

Our sample was designed to provide estimates at a 95 percent confidence level.
The estimation methodology was the mathematical formulas for simple random
sampling for variables/attributes used to determine the point estimates and its
standard errors.

We performed audit work at MDES in Jackson, MS from April 18, 2006, to
April 21, 2006, and in our Dallas Office between April 21 and September 14,
2006. Subsequent to receiving a response from MDES on our statement of facts
on October 13, 2006, we conducted additional audit work in our Dallas office
through January 2007.




                                       3
RESULTS

Proof of Employment was not adequate to support claimants’ entitlement
to DUA.

Files for 85, or 23 percent, of the 364 claimants reviewed did not contain any
documentation, nor were any wages reported, to support the claimants’
entitlement to DUA. We found that MDES paid these 85 claimants $159,782 in
DUA. Based on our statistical sample, we project that MDES paid at least $3.3
million, at a 95 percent confidence level, in DUA payments on claims having no
POE documentation. MDES has initiated stop payments and demanded
repayment of $96,995 from 61 of these claimants.

Further, the files of 176, or 48 percent, of the 364 claimants in our review
contained documentation that did not provide adequate proof that the individuals
were entitled to DUA benefits. MDES paid these 176 claimants $702,408 in
DUA:

   ¾ $533,718 to136 claimants (37 percent) who provided only 2004 tax
     documents, which did not prove that the claimant was employed or self-
     employed in August 2005; and

   ¾ $168,690 to 40 claimants (11 percent) who provided other documentation,
     such as 2002 or 2003 tax documents, business licenses, and self-
     attestations, that we determined to be inadequate POE.

   Based on our statistical sample, we project that MDES paid at least $21.8
   million, at a 95 percent confidence level, in DUA payments on claims having
   inadequate POE documentation.

Although the magnitude of this disaster resulted in large numbers of claimants
who needed immediate assistance, 20 CFR 625.6(e)(1-2) provides, in part:

      . . . individuals shall furnish documentation to substantiate the
      employment or self-employment or wages earned from or paid for
      such employment or self-employment or documentation to support
      that the individual was to commence employment or self-
      employment on or after the date the major disaster began.

      Any individual who fails to submit documentation to substantiate
      employment or self-employment or the planned commencement of
      employment or self-employment . . . shall be determined ineligible
      for the payment of DUA for any week of unemployment due to the
      disaster.




                                        4
MDES paid at least $7.7 million more in DUA by paying the maximum WBA.

We found MDES paid 1591 claimants $301,387 more in DUA than it would have
under State law by using the maximum WBA instead of 2004 wages or net
income to calculate benefits. Based on our statistical sample, we project that
MDES paid at least $7.7 million more, at a 95 percent confidence level, in DUA
as a result of applying EO 940.2

Normally, DUA WBAs are established by making a determination using the
individual’s base period wages. For individuals affected by Hurricane Katrina,
this would mean establishing their claims based on their 2004 earnings. 20 CFR
625.6 (a)(2), states, in part:

      . . . the base period to be utilized in computing the DUA weekly
      amount shall be the most recent tax year that has ended for the
      individual (whether an employee or self-employed) prior to the
      individual’s unemployment that was a direct result of the major
      disaster. . . .

RECOMMENDATIONS

We recommend the Assistant Secretary for Employment and Training:

    1. Continue to monitor MDES’s collection efforts for all claimants who did not
       provide POE; and

    2. Provide guidance to the States regarding the advisability of paying DUA at
       the maximum WBA.

AGENCY RESPONSE

In response to the draft Management Letter, the Assistant Secretary for
Employment and Training stated that ETA has worked closely with MDES to
ensure adequate controls are in place that appropriate documentation is obtained
from DUA claimants; ETA will continue to monitor MDES’s collection efforts.
Regarding our recommendation to provide guidance to the states on the
advisability of paying DUA at the maximum WBA, the Assistant Secretary stated
that it is not possible to provide states with prospective general guidance on this
matter. The Assistant Secretary’s response is included in its entirety as an
Attachment.


1
  Only 159 of the 364 sampled claimants provided 2004 tax information to substantiate their
claims. Therefore, the remaining 205 claimants could not be included in these results.
2
 These claimants are also included in the projections for claimants with no POE or inadequate
POE.


                                               5
OIG CONCLUSION

Based on the Assistant Secretary’s response, we consider the first
recommendation resolved. It will be closed upon receipt of documentation to
support MDES’s and ETA regional staff’s actions taken to address the
recommendation, as described in the response.

Regarding the second recommendation, we accept ETA’s explanation regarding
its inability to give prospective general guidance to states about the advisability of
paying DUA at the maximum amount. However, as ETA pointed out, any state
action taken to alter/augment benefit amounts in response to a disaster, and how
such an action would impact the calculation of DUA WBA, would have to be
determined at the time it occurs. Therefore, we believe ETA should develop a
procedure for addressing this issue so that it can be timely put into action when
another disaster such as Hurricanes Katrina and Rita occurs.

This final Management Letter is submitted for appropriate action. We request a
response within 60 days describing and documenting actions taken in response
to the recommendations.

If you have any questions concerning this Management Letter, please contact
David Williams, Regional Inspector General for Audit, in Dallas at (972) 850-
4005.

Attachment

cc:    Howard Radzely
       Acting Deputy Secretary

       Helen Parker
       Regional Administrator

       Les Range
       Deputy Executive Director, Chief Operating Officer
       Mississippi Department of Employment Security

       Phyllis Newby
       ETA Audit Liaison




                                          6
    ATTACHMENT




7
    ATTACHMENT




8
